IN THE

Supreme Court of the United States
Christopher Gary Baylor,
Petitioner,
v.

Case No. 20-756
CERTIFICATE

AYANO ETO
Respondent.
/

CERTIFICATE OF SERVICE
I HEREBY CERTIFY, on the Thirty-first day of March, 2021, a true and
correct copy of the foregoing Petition for Rehearing and Appendix was mailed upon
the following:

Ayano Baylor
Lot 3055 PO Box 17370
Saint Paul, MN-55117-0370

I declare under penalty of perjury that the foregoing is true and correct.
28 U. S. C. ยง1746.
/s/Christopher Gary Bavlor
Christopher Gary Baylor

